                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

                   1'
 Case Number: I05110070
                   II                                                            11          Page 1 of 1



         0 1 ~ ' b ~ e n ethis
                            d investigation based upon a proactive review of NSF Award files for fraud
               II
         indicators andlor information about possible misappropriation of grant funds. This NSF ward'
         was kFlected as the e-jacket file contained correspondence from the Principal investigator2 (PI) to
         the T$SF Program officer3 (PO) indicating delayed procedures with the accounting and financial
         syste&s at the university4.

         The Go5was interviewed regarding the letter helshe received from the PI 6 . The PO said the PI
         was k;rpressing hisher frustration with the slow administrative process at the University.

         The ?I was interviewed and stated helshe wrote the letter to the PO because helshe was being
         trutdful and honest about the administrative delays that were occurring at the University. The PI
         said $e situation at the University, specifically post award management, has improved
         signibcantly since qualified staff has been hired and new procedures have been implemented.
         The PI said helshe is not aware of any misappropriation or misuse of grant funds at the
         uni&rsity and would not hesitate to report this information if known.
                                                                                                               '
         A reqiew was conducted of the grant file documentation in E-jacket, Fastlane and the Financial
         Accobnting Systems, and resulted in no findings indicating unusual transactions.

         Acco~dingly,this case is closed.
               I




               4 0



NSF OIG Form 2"(11/02)

                   i
